<html>
<title> - OVERSIGHT HEARING: EPA'S PROPOSED NATIONAL AMBIENT AIRQUALITY STANDARDS FOR OZONE</title>
<body><pre>[Senate Hearing 113-810]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-810

                        OVERSIGHT HEARING: EPA'S
                     PROPOSED NATIONAL AMBIENT AIR
                      QUALITY STANDARDS FOR OZONE

=======================================================================

                                HEARING

                               before the


                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 17, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-362 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                              
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

               SHELDON WHITEHOUSE, Rhode Island, Chairman
THOMAS R. CARPER, Delaware           JEFF SESSIONS, Alabama
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
EDWARD MARKEY, Massachusetts         JOHN BOOZMAN, Arkansas
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           DECEMBER 17, 2014
                           OPENING STATEMENTS

Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     1
Kirsten, Hon. Gillibrand, U.S. Senator from the State of New York    12

                               WITNESSES

Mccabe, Janet, Acting Assistant Administrator for the Office of 
  Air and Radiation, U.S. Environmental Protection Agency........     3
    Prepared statement...........................................     5
Wellenius, Gregory A., SC.D., Associate Professor of 
  Epidemiology; Associate Director, Center for Environmental 
  Health and Technology, Brown University School of Public Health    15
    Prepared statement...........................................    18
    Responses to additional questions from Senator Boxer.........    23
Patton, Vicki, General Counsel, Environmental Defense Fund.......    25
    Prepared statement...........................................    27
    Responses to additional questions from Senator Boxer.........    41
Ferkol, Thomas William, Jr., M.D., Alexis Hartmann Professor of 
  Pediatrics; Professor of Cell Biology and Physiology, Division 
  of Allergy, Immunology and Pulmonary Medicine, Washington 
  University School of Medicine..................................    44
    Prepared statement...........................................    46
    Responses to additional questions from Senator Boxer.........    50

                          ADDITIONAL MATERIAL

Statements:
    National Association fo Manufactures.........................    63
    Texas Commission of Environmental Quality....................    84
    Commonwealth of Kentucky, Office of the Governor.............   103
Senate Resolution 253, 113th Congress............................   106

 
OVERSIGHT HEARING: EPA'S PROPOSED NATIONAL AMBIENT AIRQUALITY STANDARDS 
                               FOR OZONE

                              ----------                              


                      THURDSAY, DECEMBER 17, 2014

                                U.S. SENATE
          Committee on Environment and Public Works
               Subcommittee on Clean Air and Nuclear Safety
                                                    Washington, DC.
    The committees met, pursuant to notice, at 2:30 p.m. in 
room 406, Dirksen Senate Building, Hon. Sheldon Whitehouse 
(chair of the subcommittee) presiding.
    Present: Senators Whitehouse, Gillibrand.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Good afternoon, everyone. I think I 
will call this hearing to order at the exact moment that at 
least my little BlackBerry says it is 2:30.
    Welcome, everyone, to what is virtually assuredly the last 
congressional hearing of this Congress. I think most of the 
building is empty but for us, and we are relatively empty here 
as well. But I am very pleased that we are here, and I thank 
the witnesses for coming today.
    The Clean Air Act requires EPA to review National Ambient 
Air Quality Standards, which if you initialize that, it turns 
to NAAQS, which in turn gets pronounced as ``nacks.'' So that 
is why everybody talks about NAAQS in this area. It requires 
EPA to review NAAQS standards for ozone and for five other 
pollutants every 5 years to ensure that they protect public 
health.
    The current 75 parts per billion ozone standard has been 
too high since the day it was finalized by the Bush 
administration back in 2008. That decision by the Bush 
administration was so out of line that the scientific advisory 
committee actually pushed back after the fact and wrote a very 
unusual letter to Administrator Johnson, telling him that he 
had made a mistake and that the number could not be justified. 
But given the priorities of that Administration, the scientific 
advice was not reckoned with.
    So therefore, the standard was set. Since then we have had 
false comfort that the air we breathe every day is safe. The 
revised standard is a significant improvement. It is based on 
extensive scientific research, including over 1,000 studies 
that have been published since the 2008 standard. This is a 
particularly big deal in my home State of Rhode Island. The 
congressional Research Service has looked at the history of 
these air quality standards and it has in its report a map from 
the EPA Green Book that shows the non-attainment areas and the 
State of Rhode Island and a good deal of the northeast coast is 
just whack in the middle of the area.
    There is a significant reason for that that I will get to 
in a minute. But Providence and Kent Counties in Rhode Island, 
as a result, get F grades for high ozone days in the American 
Lung Association's 2014 State of the Air Report. Regrettably, 
there is not a whole lot that we can do about it in Rhode 
Island, because the causes tend to be out of State. And 
specifically, they include out of State power plants that for 
years dodged providing adequate pollution controls. At the same 
time, they used particularly tall smokestacks to launch the 
ozone-forming pollutants that they produced up into prevailing 
winds that move northeast from the Midwest, from the Ohio 
Valley, from that heavy coal-burning area. And they come 
landing on us. It is actually a pretty deliberate path to ozone 
formation that pollutes the air and the lungs of people in 
downwind States like mine.
    Now, the industry claims that an ozone standard that 
protects public health will devaState businesses and the 
economy. But when you look at history, over and over again, 
those claims have been shown to be exaggerated and usually the 
contrary is true. In this case, I believe Ms. McCabe will 
testify that in terms of cost and benefit, the benefits of this 
rule in health and in other areas are three times the cost.
    EPA's analysis shows that health benefits of a 65 to 70 
part per billion ozone standard translate into economic 
benefits that, excluding California, which I guess already 
complies with this, would be $4 billion to $23 billion higher 
than the costs in 2025. These EPA regulations have already 
lowered the number and severity of bad air days in the United 
States. These bad air days are days where ozone levels are so 
high that it is unhealthy for sensitive individuals like the 
elderly or infants or people with breathing difficulties to be 
outdoors.
    We get those in Rhode Island. We get those in Rhode Island 
in the summer. It is a perfectly nice day, you are driving into 
work, you are listening to the radio and the voice on the radio 
suddenly says, today is a bad air day in Rhode Island, and 
advises the elderly and infants and people with breathing 
issues to stay indoors. Basically, the day of those people has 
just been taken from them by out of State polluters who have 
been reckless about complying with the laws.
    As climate change warms things up, it actually makes the 
conditions for ozone formation more common and therefore, more 
bad air days more likely. CASAC, the Science Advisory 
Committee, is again recommending that EPA set a standard within 
the 60 to 70 parts per billion range, noting that 60 parts per 
billion would offer more public health protection than a 
standard between 65 and 70 parts per billion. I hope that EPA 
will set a standard of 60 parts per billion that prioritizes 
public health protection.
    I thank Ms. McCabe for being here, and invite her to 
proceed.

 STATEMENT OF JANET McCABE, ACTING ASSISTANT ADMINISTRATOR FOR 
THE OFFICE OF AIR AND RADIATION, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Ms. McCabe. Thank you, Chairman Whitehouse. Thank you for 
the opportunity to testify today on EPA's recently proposed 
updates to the ozone National Ambient Air Quality Standards, or 
NAAQS, as you described them.
    Because the air we breathe is so important to our overall 
health and well-being, the Clean Air Act requires EPA to review 
the NAAQS every 5 years to make sure that they continue to 
protect public health with an adequate margin of safety. For 
at-risk groups, including millions of adults and children who 
have asthma, this is critical.
    Establishing and implementing a NAAQS is a two-step process 
for improving air quality. Setting the standards is step one. 
It is about defining what is clean air to protect public 
health. Implementing the standards is step two, and involves 
the Federal Government, States and tribes, if they wish to, 
putting measures and programs in place to reduce harmful 
pollution.
    For this review, EPA examined thousands of scientific 
studies and, based on the law, based on a full review of the 
science, based on the recommendations of the agency's 
independent scientific advisors, and based on the assessment of 
EPA scientists and technical experts, the Administrator has 
proposed to strengthen the standards to within a range of 65 to 
70 parts per billion to better protect Americans' health and 
welfare. This is a proposal, and taking public comment on a 
range is exactly how the process is supposed to work. The 
agency welcomes comments on all aspects of the proposal, 
including on setting the level as low as 60 parts per billion. 
We will accept comment on retaining the existing standard, as 
well.
    We are also proposing to update the Air Quality Index for 
ozone. The AQI is the tool that you just referred to, Senator, 
that gives Americans real-time information to help them make 
the best choices to protect themselves and their families. And 
we are proposing to make updates to monitoring and permitting 
requirements, to smooth the transition and to assure that the 
public has full information about air quality. All of these 
updates are designed to ensure that Americans are alerted when 
ozone approaches levels that may be unhealthy, especially for 
sensitive people.
    To protect the environment from damaging levels of ground 
level ozone, as required by the Clean Air Act, the EPA has also 
proposed to revise the secondary standard to within the same 
range to protect against harm to trees, plants, and ecosystems. 
The science clearly tells us that ozone poses a real threat to 
our health, especially to growing children, older Americans, 
those of us with heart or lung conditions, and those who are 
active or work outside. The proposal to strengthen the 
standards is designed to better protect children and families 
from these health effects of ozone pollution.
    For example, we estimate that meeting a level of 70 parts 
per billion would prevent hundreds of thousands of missed 
school days and asthma attacks and hundreds of premature deaths 
per year. This would yield annual health benefits of $6.4 
billion to $13 billion. These estimated benefits include the 
value of avoiding asthma attacks, heart attacks, missed school 
days and premature deaths, among other health effects.
    States will ultimately determine what measures beyond the 
Federal ones are appropriate for their clean air plans. EPA has 
estimated illustrative annual costs at $3.9 billion for a 
standard of 70 parts per billion. The estimated benefits 
outweigh the estimated costs by as much as a ratio of three to 
one. And meeting a standard of 65 parts per billion is 
projected to provide additional benefits.
    Implementing a NAAQS has always been and will continue to 
be a Federal, State and tribal partnership. Local communities, 
States, tribes and EPA have already shown that we can reduce 
ground level ozone while our economy continues to thrive. 
Nationally, since 1980, average ozone levels have fallen by a 
third. And 90 percent of the areas originally identified as not 
meeting the ozone standard set in 1997 now meet those 
standards. We have reduced air pollution and our economy has 
grown. We fully expect that this progress will continue.
    Existing and proposed Federal measures like vehicle 
standards and power plant rules are leading to substantial 
reductions in ozone nationwide, which will help improve air 
quality and help many areas meet any revised standard.
    Exposures to ground level ozone, a key component of smog, 
can have very serious consequences for our families' health and 
the environment. We are looking forward to hearing what the 
public thinks about the proposal. There will be a 90-day public 
comment period, which I believe starts today. I am told that 
the rule published today. We will be holding three public 
hearings, as well, as we work toward completing the final 
standards by October 1st, 2015.
    Senator, I look forward to your questions. Thank you very 
much.
    [The prepared statement of Ms. McCabe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Whitehouse. Thank you very much, Ms. McCabe. Let me 
welcome Senator Gillibrand. Being a fellow Northeasterner, it 
is no surprise to me that she has taken the trouble to come to 
this hearing. Our States are on the receiving end of the ozone 
that other States and the power plants in those States emit.
    Can you describe what you think the methodology is likely 
to be for compliance with this standard in other States? Is it 
cleaning up at the smokestack? Is it policy changes at the 
State level? What are you expecting by way of a compliance 
method?
    Ms. McCabe. It will really depend on a couple of things. 
The States are ultimately responsible for designing plants to 
meet the standard. They can take into account any Federal 
measures that have been put in place. EPA, for example, 
recently finalized the Tier 3 engine and fuel standards, which 
will provide substantial benefits, way out into the future, in 
the timeframe needed for these areas. So I would expect that 
many States would rely on programs like that, and other Federal 
programs that are going forward.
    Senator Whitehouse. So some things, some compliance regimes 
that will help States achieve the standard are already in 
place. Measuring their effect will be a part of the compliance.
    Ms. McCabe. That is correct.
    Senator Whitehouse. Do you expect that there are new 
requirements that, for instance, power plants will have to 
apply?
    Ms. McCabe. When it comes to power plants, we have, of 
course, the mercury rule. We have the cross-State air pollution 
rule. We have the Clean Power Plan, which is moving forward as 
a proposal at this time. There are other tools that either we 
or States would look at. The cross-State air pollution comes 
from our good neighbor provisions in the Clean Air Act. States 
are obliged to address pollution that they are contributing to 
downwind areas. We will be working with the States to assess 
whether there are those kinds of contributions, in light of the 
other programs that are in place. And as appropriate, then we 
and the States would work together to put in place requirements 
that might affect large sources like power plants.
    Senator Whitehouse. So a power plant owner looking at this 
proposed rule could expect that the improvements in emissions 
that they would be obliged to make as a result, for instance, 
of the good neighbor policy, would count toward the new ozone 
standard and would likely help reduce their emissions of ozone 
precursors as well, correct?
    Ms. McCabe. That is correct. It all depends on what the 
monitors show, and any program that is helping those monitors 
show compliant air quality is helping.
    Senator Whitehouse. EPA's analysis that the benefits are 
between $6 billion and $13 billion and the costs around $4 
billion, that analysis is not a first effort by EPA. You have 
looked at the question of cost benefit analysis of clean air 
regulations for many years, have you not?
    Ms. McCabe. We do, yes.
    Senator Whitehouse. What is the track record of your 
estimates?
    Ms. McCabe. We generally are conservative in estimating the 
costs of the measures that would be put in place. I think there 
is a fairly steady track record of technologies coming in at 
lower costs than we expected.
    Senator Whitehouse. So you are pretty confident in the 
track record of your previous estimates, and that gives you 
some confidence that these estimates have merit?
    Ms. McCabe. Yes, and I should note also that these costs 
are illustrative, because as I said, it will be up to the 
States ultimately to determine what makes the most sense for 
them, and they will look for the most cost-effective 
approaches. We do our best to do an illustrative case.
    Senator Whitehouse. And would costs that would be required 
to meet this standard also be costs that would be pertinent to 
meeting the good neighbor rule?
    Ms. McCabe. Well, we don't double-count things, so if costs 
have already been assumed in other rules, then we don't count 
them again here. So we try to make very clear that the costs 
for each rule are associated with that rule.
    Senator Whitehouse. Senator Gillibrand.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you so much, Senator Whitehouse, 
for chairing this hearing today. I am very eager that we have a 
chance to address the EPA's proposed National Ambient Air 
Quality Standards for ozone.
    I also want to thank Assistant Administrator Janet McCabe 
for joining us today. I am very grateful.
    At a time when pictures of smog-filled foreign capitals are 
making front pages around the world, the United States should 
be taking the lead on the issue of air quality. I believe it is 
an urgent public health challenge and we have to take it very 
seriously. We are long overdue in this Country for updated air 
quality standards from the EPA.
    This past April, the American Lung Association released its 
annual State of the Air Report. They found that nearly half of 
all Americans, more than 147 million people, live in counties 
where ozone or particle pollution levels make the air unhealthy 
to breathe. Although some air quality indicators improved, 
levels of ozone and smog are much worse than they were last 
year. The report also found the 22 out of 25 most smog-polluted 
cities, including New York City in my home State, had more high 
smog days on average than last year.
    In the richest and most innovative Country on earth, it is 
stunning that our air quality is moving back in this direction 
in the year 2014, and we have to reverse the trend. Because as 
global temperatures continue to rise, and it is clear that they 
are doing so, the risks for smog in our communities will 
continue to grow.
    I have heard from many New Yorkers whose children have 
asthma about the challenges they face in addressing air quality 
in their own communities. So this is something that we all have 
to be concerned about, not just for kids, but for our seniors 
and anyone with any type of lung or heart disease. I find it 
especially disturbing that more than 35.6 million children 
under 18 right here in the United States live in counties that 
have poor air quality. I am very concerned particularly about 
the levels of bronchitis and lung infections that we have in 
our communities. And we are failing them if we can't enact more 
stringent air quality controls.
    The Southern California Children's Health Study looked at 
children who grew up in more polluted areas, and it came to the 
stunning conclusion that lung function for those kids dropped 
by 20 percent from what was expected for their age. It is as if 
these children grew up in a home with parents who smoke, except 
the side effects just came from playing outside.
    Senator Gillibrand. So I have a couple of questions to ask 
you that I can submit for the record if we don't have enough 
time.
    Senator Whitehouse. We are good, it is just us.
    Senator Gillibrand. Just us, OK.
    Ozone values for New York City, Staten Island and Long 
Island have been dropping since 1990. But values are still at 
or above the current 75 parts per billion standard, especially 
during summer months. What are some of the standards that could 
be put in place to help New York and other States meet the 
proposed lower standard?
    Ms. McCabe. Sure. I mentioned the Tier 3 engine and fuel 
standards that the agency finalized at the beginning of this 
year. Those will go into effect starting in 2017 and will 
significantly reduce the NOx emissions from motor vehicles. In 
a populated place like New York, Rhode Island, the east coast, 
that will have a tremendous and very quick impact.
    Reductions by power plants of NO<INF>x</INF> will also have 
an impact and that has been mentioned already. Ozone is a 
regional pollutant, so emissions reductions that happen many 
miles away can help reduce impact in local areas.
    There are also a number of local measures that areas can 
take to reduce local emissions. Many areas have put a lot of 
those in place already, New York City, Rhode Island, those 
areas certainly have done that. But we know that there continue 
to be reductions that can be achieved out there, both locally 
and regionally.
    Senator Gillibrand. Thank you.
    Throughout the history of the Clean Air Act, we have 
continually heard claims by polluters and other opponents of 
strong clean air standards that they can't afford to clean up 
emissions, that it just costs too much. This implication is 
that somehow we can't have both a clean environment and a 
healthy economy. This is something I strongly disagree with and 
we have not seen the doomsday scenarios that they have 
predicted time and time again.
    Now, we are hearing the same industry chorus again saying 
that it is too costly to implement the new proposed ozone 
standards. Can you address some of these claims head-on, and 
how do you see the ability of industry to adapt and innovate to 
meet strong ozone standards? Can you describe the benefits that 
we will see as a society and the cost savings for families that 
will come from taking more pollutants out of the air?
    Ms. McCabe. The first thing to really emphasize in response 
to your question, Senator, is that the decision that the 
Administrator proposed just recently and that is out for public 
notice today is all about what is the right level that means 
safe air quality. It is not about implementation, it is not 
about the costs associated with implementation. There are 
processes laid out in the Clean Air Act to address that. This 
is about making sure that Americans can know what is a safe 
level for them to have in their air. So that is what we are all 
about here.
    However, I will go on to say that over the last 40 years, 
40-plus years now that the Clean Air Act has been in effect, 
air pollution in this Country has declined by 70-plus percent. 
The economy has tripled. The record jus doesn't bear out that a 
clean economy and clean air don't go together. I share your 
view on that.
    We have found time and time again that American industry, 
American engineers have innovated, have developed technologies 
that we didn't know existed at the time that standards were 
established or existed but were not in widespread use or were 
costly. And those costs came down, and those technologies have 
become the norm now. Things like selective catalytic reduction, 
catalytic converters for cars, low or zero VOC coatings. All 
these things are technologies that have developed and have 
helped to bring clean air and to grow business and industry in 
this Country.
    Senator Gillibrand. Thank you. Thank you, Mr. Chairman.
    Senator Whitehouse. One last question with respect to the 
NO<INF>x</INF> emissions from the power plants. How are those 
reduced?
    Ms. McCabe. Typically, technology like selective catalytic 
reduction or non-selective catalytic reduction are the two main 
technologies that are used. There are low-NO<INF>x</INF> 
burners, other technologies like that.
    Senator Whitehouse. Equipment that is manufactured in order 
to clean up the emissions?
    Ms. McCabe. That is correct.
    Senator Whitehouse. Great, thank you. Thank you very much 
for your testimony. Good luck with the rule. I know that you 
have a lot of input ahead of you before you finalize it. And 
thank you for your efforts.
    Ms. McCabe. Thank you.
    Senator Whitehouse. I will now call the next panel. What I 
would like to do is introduce the witnesses who are here and 
then invite them to speak sequentially. Our first witness is 
Greg Wellenius, who is an Associate Professor of Epidemiology 
and Associate Director of the Center for Environmental Health 
and Technology at Brown University School of Public Health. His 
work is primarily focused on studying the effects of ambient 
air pollution on the risk of cardiovascular events and its 
effects on cardiovascular physiology. He received his Bachelor 
of Science and Master of Science in Physiology from McGill 
University and his doctorate in epidemiology and environmental 
health from Harvard University. He has been doing ground-
breaking work in Rhode Island studying heat-related deaths and 
hospitalizations. So I am particularly proud that Dr. Wellenius 
is with us today.
    He will be followed by Vicki Patton, who is Environmental 
Defense Fund's General Counsel, and manages the organization's 
national and regional clean air programs. Prior to joining EDF, 
Patton worked at the U.S. Environmental Protection Agency's 
Office of General Counsel here in Washington, where she 
provided legal counsel on a variety of national air quality 
initiatives. She serves as a member of EPA's National Clean Air 
Act Advisory Committee. She received her B.S. in hydrology from 
the University of Arizona and her J.D. from NYU School of Law.
    Dr. Thomas Ferkol is the Alexis Hartmann Professor of 
Pediatrics and a professor of cell biology and physiology and 
director of the multi-disciplinary division of Pediatric 
Allergy, Immunology and Pulmonary Medicine at the Washington 
University School of Medicine. In addition to his work at 
Washington University School of Medicine, Dr. Ferkol is the 
President of the American Thoracic Society, an international 
organization with over 15,000 members. He also serves as a 
member of the American Board of Pediatrics sub-board of 
Pediatric Pulmonology. Dr. Ferkol is a graduate of Case Western 
Reserve and the Ohio State University College of Medicine.
    The remaining two witnesses on our panel, Mr. Ross 
Eisenberg and Dr. Bryan Shaw are no-shows. They were invited, 
they accepted the invitations and they confirmed their 
attendance. We informed them that the hearing would proceed as 
clearly as allowed under Senate rules. So it is unfortunate 
they have chosen not to attend this official Senate hearing. 
But we will go ahead with the witnesses who did choose to 
attend.
    If you would proceed, Dr. Wellenius, thank you very much 
for coming down from Rhode Island for this hearing.

 STATEMENT OF GREGORY A. WELLENIUS, SC.D., ASSOCIATE PROFESSOR 
 OF EPIDEMIOLOGY; ASSOCIATE DIRECTOR, CENTER FOR ENVIRONMENTAL 
HEALTH AND TECHNOLOGY, BROWN UNIVERSITY SCHOOL OF PUBLIC HEALTH

    Mr. Wellenius. Thank you, Mr. Chairman. It is a pleasure to 
be here. Thank you for the opportunity to testify today.
    My name is Dr. Greg Wellenius, and I am an associate 
professor of epidemiology at the Brown University School of 
Public Health and associate director of the Brown University 
Center for Environmental Health and Technology. I earned my 
doctorate in environmental health and epidemiology from the 
Harvard School of Public Health, and previously served on the 
faculty at Harvard Medical School. I have been conducting 
research on the health effects of air pollution for more than 
15 years and it is my pleasure to provide testimony in this 
area today.
    There is broad scientific and medical consensus that the 
current standard of 75 parts per billion is outdated, and that 
a protective standard should fall within the range of 60 to 70 
parts per billion. Reducing ozone pollution will save lives and 
improve air quality for everyone, especially vulnerable 
populations like children and those with asthma.
    For the reasons I will detail in a moment, I encourage the 
EPA to give full consideration to setting a 60 parts per 
billion standard and to finalize a standard that will protect 
the public's health.
    As I mentioned, there is a broad consensus in the 
scientific and medical communities that ambient ozone is 
harmful to human health. In 2011, 14 leading medical and public 
health organizations, including the American Academy of 
Pediatrics, the American Heart Association, the American Lung 
Association and the American Thoracic Society, co-signed a 
letter to the Obama administration saying that ``To safeguard 
the health of the American people, help to save lives and 
reduce health care spending, we support the most protective 
standard under consideration, 60 parts per billion, averaged 
over 8 hours.''
    EPA staff and the Clean Air Scientific Advisory Committee, 
a panel of external, independent scientists, have also 
concluded that there is a causal relationship between short-
term ozone exposure and respiratory health effects. This 
conclusion is based on the findings of more than a thousand 
studies carried out over decades and overall demonstrating that 
ozone exposure leads to increased risk of respiratory deaths, 
hospital admissions and emergency department visits, increased 
respiratory symptoms and medication use, reduced life function 
and increased airway reactivity.
    As one example out of very many, a 2010 study by the 
scientists at Emory and Georgia Institute of Technology found 
that in the Atlanta metropolitan area, ozone was linked to 
higher rates of pediatric emergency department visits for 
asthma, even at levels well below the current standard. Many 
other studies also indicate measurable adverse health effects 
at levels below the current standard. For example, meaningful 
and statistically significant reductions in lung function have 
been observed in exercising young, healthy adults exposed to 
ozone levels as low as 60 parts per billion. Other studies have 
found increased respiratory symptoms during controlled 
exposures to ozone at levels of 70 parts per billion. Of note, 
these controlled exposure studies have been conducted in 
healthy adults. It is expected that people with asthma, 
including asthmatic children, would be even more sensitive to 
these effects.
    The scientific evidence clearly shows that the current 
standard for ozone is inadequate to protect the public's 
health. The Clean Air Scientific Advisory Committee concluded 
that there is ``clear scientific support for the need to revise 
the standard'' and that ``there is adequate scientific evidence 
to recommend a range of levels for a revised primary ozone 
standard from 70 parts per billion to 60 parts per billion.''
    Lowering the primary ozone standard would have significant 
public health benefits, including fewer deaths, fewer hospital 
admissions and emergency room visits for respiratory diseases, 
fewer respiratory symptoms and improved lung function, 
especially amongst the most vulnerable members of the 
population. In Rhode Island, the State that you represent and 
where I work, at Brown University, asthma rates in adults and 
children are above the national average. Ensuring ozone 
pollution is at safe levels will save lives and improve the 
quality of life for the people of Rhode Island and for people 
across the Country.
    Rising temperatures from climate change could further 
exacerbate the health effects of ozone. Research has shown that 
formation of ground level ozone is affected by weather and 
climate and that there is a strong link between higher 
temperatures and increased ozone levels. Ozone itself is also a 
major greenhouse gas and an important contributor to global 
climate change. Thus, reducing ozone pollution today would not 
only provide immediate and long-lasting public health benefits, 
it would also help slow the pace of future climate change. At 
the same time, addressing climate change could help reduce 
ozone pollution.
    In conclusion, EPA's proposal to revise the ozone standard 
is based on scientific and medical consensus and supported by 
extensive scientific evidence. I encourage the EPA to give full 
consideration to setting the primary ozone standard at the 
health-protective level of 60 parts per billion.
    Thank you for your attention, and I would be happy to 
answer any questions.
    [The prepared statement of Mr. Wellenius follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Whitehouse. Thank you, Dr. Wellenius. I very much 
appreciate that you have come down to give not only your 
scientific perspective, but your Rhode Island perspective.
    Ms. Patton, thank you.

   STATEMENT OF VICKI PATTON, GENERAL COUNSEL, ENVIRONMENTAL 
                          DEFENSE FUND

    Ms. Patton. Chairman Whitehouse, thank you very much for 
your leadership on behalf of clean, safe air for our 
communities and families. We sure appreciate it.
    The United States' commitment to clean air is a broadly 
shared American value, whether you live in a red State, a blue 
State or a purple State, or in the case of my own home State, 
in the heart of the Rockies in Colorado, which is all of the 
above. Americans want clean, healthy air for our communities 
and for our families.
    The establishment of the health-based air quality standards 
for ozone is really the bedrock foundation of our Nation's 
clean air laws. It is why Congress has instructed the 
Administrator of the Environmental Protection Agency to 
establish those standards on the basis of human health. The 
question for the Administrator is whether the air in our 
communities is safe to breathe.
    This determination on the basis of human health was 
affirmed in a landmark Supreme Court decision, penned by 
Justice Antonin Scalia, who broadly affirmed that it is EPA's 
solemn responsibility to establish health-based standards for 
ozone on the basis of whether the air in our communities is in 
fact safe to breathe. And we know, as others have already 
commented, that it is not safe to breathe on the basis of the 
current health-based standard. The Clean Air Scientific 
Advisory Committee, which was established by Congress under the 
Nation's clean air laws, to give EPA rigorous, independent 
advice on the scientific foundations of the national health-
based air quality standards, has in fact concluded that the 
current health-based standards is not adequate to protect our 
children's health, our Nation's health, and that we do in fact 
need to strengthen that standard in a range between 60 and 70 
parts per billion. And indeed, they further recommended that a 
standard in the lower end of the ranges would be appropriate, 
and questioned whether a standard in the higher levels of those 
ranges, up toward 70 parts per billion, would in fact carry out 
the Administrator's responsibility to protect human health with 
an adequate margin of safety.
    We know that the effects of ozone are profound. There is 
difficulty breathing on high ozone days, there are asthma 
attacks, emergency room visits, hospital admissions and 
premature deaths. Indeed, one of the most significant findings 
since the Bush administration reviewed and revised the ozone 
standard in 2008 is the strong basis of science linking ozone 
concentrations to premature death.
    The populations at risk include our children, it includes 
individuals with asthma, elderly, those who are outside 
working, exercising and living. The Clean Air Scientific 
Advisory Committee looked at a whole host of information in 
concluding that these effects are significant and the 
populations at risk are imperiled, including clinical studies, 
epidemiological studies, animal toxicological studies, exposure 
and risk assessments.
    We have heard the numbers. We have heard the numbers of 
health impacts at stake. But if you are a mother or a father of 
a child with asthma and that child suffers an asthma attack on 
a high ozone day, the impacts are profound on your family. It 
changes your family's fabric in so many fundamental ways.
    This is why Congress has long instructed the Environmental 
Protection Agency to establish the health-based standards, on 
the basis of science, on the basis of public health. We have 
already talked about how we are well on our way to achieving 
those standards. Senator Gillibrand talked about sort of the 
fact that our Nation can achieve both vital human health 
protections and grow our economy. Indeed, in her own home State 
of New York, there are manufacturers that are going to be 
making the clean air technologies that will help deliver 
fundamentally cleaner vehicles under the Tier 3 tailpipe 
emission standards that others have talked about, and that will 
reduce ozone-forming pollution by 80 percent beginning with 
model year 2017 vehicles.
    There has been lots of skepticism throughout the history of 
the Nation's clean air laws that we can't meet these 
challenges, that we can't deliver cleaner, healthier air for 
our communities and families and grow our economy. When the 
Nation confronted this challenge in 1997, there was one 
Senator, Senator Whitehouse, who commented at the time that if 
we moved forward with strong ozone health standards, that our 
hair salons would be imperiled. In fact, we have achieved 
cleaner, healthier air, and those businesses are up and running 
and strong.
    Senator Whitehouse. Hair salons are not extinct. Glad to 
hear it.
    [Laughter.]
    Ms. Patton. And Senator, you indicated at the outset that 
not all the Senators are here today. I want you to know who is 
here today. Moms Clean Air Force is here today, they are here 
in the audience listening to this hearing. And Moms Clean Air 
Force represents over 400,000 moms across our Nation, moms who 
are faith-based moms, moms who live in purple States and red 
States and moms who are united by their abiding commitment to 
clean air for our children. Those moms know that when we tuck 
our children into bed at night, we are overwhelmed by our love 
for them and we are overwhelmed by our commitment to ensure a 
clean and safe and healthy environment for our children.
    Your leadership in ensuring that we have strong, health-
based ozone standards is really one of the single most 
important gifts you can give to our communities, to our 
families and to all children who are threatened by unhealthy 
air. So thank you.
    [The prepared statement of Ms. Patton follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Whitehouse. Thank you, Ms. Patton. And welcome to 
Moms Clean Air Force. As a dad, I will be the first one to 
admit that when a young child is in an emergency room with an 
asthma attack, it is likely to be the mom who had to take off 
work and go and sit there with them. When a child has had to 
miss a day of school, it is likely to be a mom who is called 
home and has to organize coverage for the child who is not in 
school. So even if it is not affecting the lungs of the moms, 
it sure is affecting their lives.
    Dr. Ferkol.

STATEMENT OF THOMAS WILLIAM FERKOL, JR., M.D., ALEXIS HARTMANN 
    PROFESSOR OF PEDIATRICS; PROFESSOR OF CELL BIOLOGY AND 
   PHYSIOLOGY, DIVISION OF ALLERGY, IMMUNOLOGY AND PULMONARY 
       MEDICINE, WASHINGTON UNIVERSITY SCHOOL OF MEDICINE

    Dr. Ferkol. Thank you, Mr. Chairman, for the opportunity to 
speak today.
    I am Tom Ferkol, I am a division director of Pediatric 
Allergy, Immunology and Pulmonary Medicine at Washington 
University in St. Louis, Missouri. To put it simply, I care for 
children with lung disease, some with severe, even life-
threatening disease. You have my written testimony before you. 
Dr. Wellenius has already provided scientific background on why 
reducing ozone pollution is important for public health.
    I just have a few brief points that I would like to make 
that I think adds to the discussion. First, with each breath, 
the lungs and airways are exposed to the outside environment. 
Breathing is not an option. Airborne pollutants, if present, 
are unavoidable. And children are far more vulnerable than 
adults to the effects of air pollution.
    The lung is not completely formed at birth. It is still 
growing, it is still developing. The developing lung is 
particularly susceptible to the harmful effects of air 
pollutants. Air pollution is associated with impaired lung 
growth that may be permanent. So what is happening during 
childhood does not end in childhood, but continues on well into 
adulthood.
    Ozone exposure increases the risk of developing asthma in 
childhood, including children that seemingly were previously 
healthy. Ozone pollution is particularly harmful to children 
who do have lung disease. That is not surprising, and it has 
been said before, but it is worth repeating. For children with 
asthma, the most common chronic disease of childhood that 
affects nearly 7 million children and adolescents in the United 
States alone, ozone levels below the current EPA standards are 
associated with increasing respiratory symptoms and the need 
for rescue medications. In some cases it requires greater 
medications, higher doses, to control their asthma systems. 
That may sound OK, except that often these medications or these 
increases in doses lead to unintended side effects.
    School absences, emergency room visits, hospital 
admissions, are all clearly associated with ambient air 
pollution. This is common knowledge. Every pediatrician who 
cares for a child, especially a child with asthma, understands 
this relationship. Sometimes it means children with asthma die, 
which is tragic and I like to think avoidable.
    Third, ozone exposure as a child can lead to deficits that 
persist well into adulthood. I mentioned that before, but I 
felt the need to repeat it. The data is emerging, and there are 
several lines of evidence that are clearly showing that early 
exposures to air pollution, including ozone pollution, have 
long-term effects. It is not surprising that the cumulative 
exposures during childhood would impact lung health later in 
life. Indeed, very few people begin their lives as adults.
    Fourth, when we in the medical community talk about the 
ozone impact on public health, it sounds like public health is 
a high-level concept. It really is not. Public health is just 
the accumulation of all the personal stories that make up 
America. Public health includes the mother of the child with 
asthma who is in the emergency room, worried whether their son 
will recover from a severe asthma attack. She is also thinking 
that she cannot afford to miss another day of work to stay home 
with her son.
    Air pollution not only leads to direct costs for medical 
care of the ill child, but also increases indirect costs from 
lost productivity due to missed work and school.
    Last, as has been stated by the previous speakers, the 
science is strong and compelling. Since 2006, when the Bush 
administration reviewed the ozone standard, the American 
Thoracic Society recommended a more protective level of 60 
parts per billion. We were confident of a recommendation then, 
we are even more confident of that recommendation today. The 
research evidence is growing. The medical community has no 
doubts about air pollution's adverse effects on pediatric 
health.
    The EPA is not basing their proposed protective ozone 
standard on one study or 10 studies. The proposed rule is based 
on literally hundreds of studies that demonstrate that the 
current standard is not protective. These studies deployed 
multiple scientific methods and models, as mentioned by the 
previous speaker.
    But the data are clear. The current ozone standard is not 
protective of public health, and the EPA must issue a more 
protective standard. Thank you.
    [The prepared statement of Dr. Ferkol follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Thank you very much, Doctor.
    Let me ask a few questions, and let me start with Dr. 
Wellenius. You have done some impressive work in Rhode Island, 
studying heat-related deaths and hospitalizations. Is ozone 
formation exacerbated by climate change, in your view? What is 
the linkage between added heat and added ozone?
    Mr. Wellenius. Thank you, Senator, for that question.
    Senator Whitehouse. It is a local question, in Rhode 
Island.
    Mr. Wellenius. Yes. In Rhode Island, what we have looked at 
is the relationship between warm temperatures and extreme heat 
and the number of emergency department visits and deaths in the 
State of Rhode Island. We found a strong association. That 
means that more people are hospitalized and die for heat-
related illnesses on those hot days.
    What we are trying to explore right now in Rhode Island is 
whether that is made worse on high ozone days. We think from 
other studies in other parts of the Country and across the 
world that days that are both hot and high ozone are generally 
worse for people than days that are either hot or high ozone, 
but not both together. So we are looking at that currently in 
Rhode Island. I don't have the results to share with you today, 
but I would be happy to provide those in the near future.
    Senator Whitehouse. Dr. Shaw did not choose to attend the 
hearing, but he did file pre-filed testimony with us, in which 
he told us that asthmatics are not in fact at greater risk of 
adverse health effects from ozone. Do you have any reaction to 
that statement?
    Mr. Wellenius. I think it is just not true, to be frank. 
There is substantial evidence that asthmatics are at least at 
as great a risk as non-asthmatics to the health effects of 
ozone. There are, as with any body of science, body of 
evidence, not every study shows that, but the overwhelming 
consensus in the field is that people with asthma are at 
greater risk.
    Senator Whitehouse. Ms. Patton, the existing standard, the 
previous standard, the 75 parts per billion standard, was 
criticized at the time that it was adopted by the Clean Air 
Scientific Advisory Committee, saying, they actually took the 
step of writing to Administrator Johnson to say that they do 
not endorse the new primary ozone standard as being 
sufficiently protective of the public health. And that that 
decision ``failed to satisfy the explicit stipulations of the 
Clean Air Act'' that you ensure an adequate margin of safety 
for all individuals, including sensitive populations.
    You were at EPA for a while, and you are familiar with the 
Scientific Advisory Panel, the CASAC. Was that an unusual step 
for them to take?
    Ms. Patton. It was an unusual step, Senator Whitehouse. It 
also highlights why the Clean Air Scientific Advisory 
Committee, in its recommendations to the Administrator in June, 
was so clear about its findings. It wanted to leave really very 
little room for ambiguity about the foundational science that 
supports two really central conclusions. One is that the 
current standard is not adequate to protect public health. That 
is what that body found in June in its recommendations to the 
Administrator, and also that there is clear evidence warranting 
a stronger standard.
    The 2008 standard was criticized sharply at the time, not 
only by the Clean Air Scientific Advisory Committee that had 
advised EPA to establish a stronger standard, but a number of 
other leaders in the medical and health community.
    Senator Whitehouse. Somebody obviously didn't find the 
Clean Air Scientific Advisory Committee to be very credible, in 
ignoring their recommendations back in 2008. What can you tell 
the committee for the record of this hearing about the 
credibility and the credential of the Clean Air Scientific 
Advisory Committee? Should we pay attention to what they say?
    Ms. Patton. The Clean Air Scientific Advisory Committee is 
established under the law to provide the Administrator with 
independent scientific and medical advice on these really 
important public health questions. So this particularly 
advisory committee that most recently communicated to the 
Administrator in June is comprised of leading scientific 
experts at institutions across our Country from leading 
academic institutions in North Carolina to the research arm of 
the U.S. power industry, the Electric Power Research Institute. 
A wide variety of experts, a wide variety of perspectives, wide 
and deep expertise in epidemiology, toxicology, the leading 
scientific foundations. They have communicated clearly to the 
Administrator, it is her solemn responsibility to strengthen 
the health-based standard for ozone.
    Senator Whitehouse. So a private citizen listening to this 
hearing can take comfort that the Clean Air Scientific Advisory 
Committee is a reputable and reliable body?
    Ms. Patton. That body is a reputable, highly regarded body 
of leading scientific experts. Its recommendations are also 
confirmed by the leading medical and health associations, the 
American Lung Association, the American Public Health 
Association, the American Thoracic Society. So there is an 
extensive body of just leading public health and medical 
associations and experts that further confirm the findings and 
recommendations of the Clean Air Scientific Advisory Committee.
    Senator Whitehouse. You have made a perfect segue to Dr. 
Ferkol. For the record, tell us a little bit about the American 
Thoracic Society, and presume that I have challenged the 
credibility of the American Thoracic Society. Presume that I 
come at you with the point of view that this is an 
irresponsible, liberal organization and explain what the 
American Thoracic Society actually is.
    Dr. Ferkol. I would say we are anything but that. We are 
somewhat egalitarian when it comes to our political leanings.
    The American Thoracic Society is an organization, 
professional organization of over 15,000 members. It includes 
scientists, physicians, nurses, respiratory therapists, 
patients, families, all of whom are interested in improving the 
pulmonary health of patients, dealing with patients who are 
critically ill, as well as focusing to some extent on sleep 
disorders. It is a very proud organization. There are a lot of 
different people with a lot of different views, with a lot of 
different political leanings. I would say that we are neither 
left nor right in that respect.
    Senator Whitehouse. And so the American Thoracic Society, 
in your view, is also reputable and reliable when it makes a 
recommendation like this on a matter with its expertise?
    Dr. Ferkol. I would hope so. Otherwise, I don't think I 
would want to be the president.
    Senator Whitehouse. Thank you.
    So let's say you are a mother in Rhode Island, or a father. 
It is a summer day and you wake up in the morning and you are 
preparing breakfast, and you are listening to the radio and 
your kids are home, and they are small. And the radio announces 
that today is a bad air day in Rhode Island and that infants 
should be kept indoors. You are not really sure what that 
means. You take your child out to get some sunshine, to run 
around a little bit. Is there harm that could be happening to 
that child that wouldn't be to a parent, to the dad or mom?
    Dr. Ferkol. The scenario that you give is a very common 
one, and it is a dilemma that families have, especially when 
you hear about particularly bad air days. We have them in St. 
Louis as well.
    Yes, there is in fact harm, and it is invisible. You don't 
smell ozone, you don't see ozone, but you are being exposed to 
ozone. The effects of this noxious agent in the air is 
cumulative. It is not just, you go out, you get exposed to 
ozone and you suddenly have an asthma attack. This is something 
that certainly can precipitate asthma, we think that is very 
clear. That is one of the causative factors. But it also can 
lead to cumulative damage the airways, to the lungs, that makes 
your lung function, as was mentioned previously, that makes 
your lung function worse and may lower the threshold for the 
next time that you have an asthma exacerbation.
    Senator Whitehouse. So the risk is not that the child or 
the vulnerable person is going to suddenly begin coughing or 
having shortness of breath or have an asthma attack, it is that 
lasting, permanent insidious damage that is being done to the 
lung that is not apparent that day.
    Dr. Ferkol. That is exactly right. I mean, certainly, I am 
sure that it is contributing to the inflammation of the airway 
that leads to an asthma exacerbation. But I think the 
cumulative effect, that is, you used the exact right word, 
insidious, it sort of sneaks up on you, sneaks up on the 
patient, sneaks up on the family. And how much of that 
influences the progression of lung disease, how much of this 
contributes to lung disease in adults is something that is a 
very interesting question. But we, needless to say, have more 
than a few concerns that this is happening.
    Senator Whitehouse. So a vulnerable person who goes out on 
a bad air day and experiences no apparent, immediate ill 
effects, doesn't feel shortness of breath, doesn't cough, 
doesn't in any way have a present sense during the bad air day 
that they have been affected, nevertheless could suffer, could 
be suffering harm as a result.
    Dr. Ferkol. It doesn't mean that there hasn't been some 
incremental injury to the airways that then predisposes the 
child or, when the child grows up, the adult to later problems 
with their lungs.
    Senator Whitehouse. And does the harm tend to be 
cumulative?
    Dr. Ferkol. That is a very good question. I would probably 
defer to Dr. Wellenius to answer.
    Senator Whitehouse. Dr. Wellenius, could you answer that 
question? The type of harm that we have been discussing, that 
is not manifest in a particular discomfort or coughing or 
shortness of breath or anything else during the day, 
nevertheless is happening, and could potentially manifest 
months or years later, correct?
    Mr. Wellenius. Yes, absolutely. The strongest evidence is 
for the short-term effects, for those effects on the same day. 
You could be outside 100 high-ozone days and not suffer an 
obvious effect and then on the 101st, you could suffer an 
asthma attack that lands you in the emergency department, or 
have really bad respiratory symptoms.
    But then there are also these cumulative effects that we 
have been talking about. Those are not just respiratory 
effects, but there is increasing evidence that those could also 
be cardiovascular effects. So we are very concerned, not just 
about the short-term effects of ozone, but about the longer, 
life-long effects of ozone.
    Senator Whitehouse. And you did say that they were 
cumulative. Could you explain that?
    Mr. Wellenius. Yes. Again, the science still needs to be 
refined in the area of over what timeframe they can be 
cumulative. But for instance, some of the cardiovascular 
effects can be seen even in young adults with having enhanced 
cardiovascular damage from their lifetime exposure to ozone. 
There are some studies demonstrating that.
    Senator Whitehouse. All right. Let me ask you to stand by 
one moment.
    I think at this point I will conclude the hearing. I do 
want to, with unanimous consent of all present, put into the 
record a combination press release and letter issued by the 
ranking member of the committee, actually inviting the 
Republican witnesses not to attend. So their failure was not 
just a failure to appear of their own. They were invited not to 
appear by the ranking member.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. And I would also like to State for the 
record that the question about proceeding with this hearing 
after the adjournment of the Senate last night was one that we 
have taken up with Senate legal counsel. We have been advised 
that we can proceed, that this is a legitimate hearing. So we 
have gone forward with that advice.
    So we are going to continue to treat this as a legitimate 
hearing, I believe that it is. That means that the record of 
the hearing remains open for an additional week after the 
conclusion of the hearing.
    Let me also add to the record a statement for the record by 
Senator Inhofe, ``Chairman Whitehouse, thank you for holding 
this hearing,'' and so forth. Senator Inhofe's hearing 
statement will be also admitted to the record, alongside 
Senator Vitter's press release denying that this is a hearing.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Whitehouse. It is getting interesting around here 
already.
    Anyway, for a week, the record of the hearing will remain 
open. Let me thank you again, all of our witnesses, for coming 
down. This is, in my view, a long overdue change in a rule that 
had no validity from the very beginning. And thank you very 
much for not only your support for the EPA action, but for your 
support for EPA pushing toward the lower 60 part per billion 
standard, which I believe is the unanimous recommendation of 
the assembled panel.
    Without further ado, we will adjourn the hearing. Again, 
thank you all very much for your participation.
    [Whereupon, at 3:28 p.m., the hearing was adjourned.]
    [Additional material submitted for the record follows.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                 [all]
</pre></body></html>
